                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-290




      Community Based Outpatient

              Clinic Reviews

                     at

      Carl Vinson VA Medical Center

                Dublin, GA





August 19, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                    CBOC Reviews at Carl Vinson VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       IT       information technology
                       MH       mental health
                       MSDS     material safety data sheet
                       MSEC     Medical Staff Executive Committee
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       NC       noncompliant
                       OI&T     Office of Information and Technology
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                    CBOC Reviews at Carl Vinson VAMC



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics.............................................................................................               6

  C&P ........................................................................................................................    7

  EOC and Emergency Management ........................................................................                           8


Appendixes
  A. VISN 7 Director Comments ...............................................................................                    11

  B. Carl Vinson VAMC Director Comments.............................................................                             12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution.............................................................................................            16





VA OIG Office of Healthcare Inspections
                                                                CBOC Reviews at Carl Vinson VAMC



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of June 3, 2013.

The review covered the following topic areas:

	   WH

	   Vaccinations

	   C&P

	   EOC

	   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

     VISN               Facility              CBOC Name                    Location
                                           Brunswick                Brunswick, GA
       7          Carl Vinson VAMC
                                           Macon                    Macon, GA
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that clinicians document all required tetanus and pneumococcal vaccination
   administration elements and that compliance is monitored.

	 Conduct chemical inventories and update MSDS lists twice a year at the Brunswick
   CBOC.

	 Ensure that the Chief of OI&T implements required security measures at the Macon
   CBOC.

	 Ensure that managers document completion of EOC rounds and identify deficiencies
   in the parent facility’s EOC Committee minutes for the Brunswick and Macon
   CBOCs.



VA OIG Office of Healthcare Inspections                                                       i
                                                      CBOC Reviews at Carl Vinson VAMC


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A–B,
pages 11–14, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                  JOHN D. DAIGH, JR., M.D.
                                                Assistant Inspector General for
                                                     Healthcare Inspections




VA OIG Office of Healthcare Inspections                                             ii
                                                                       CBOC Reviews at Carl Vinson VAMC



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                           CBOC Reviews at Carl Vinson VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                     CBOC Reviews at Carl Vinson VAMC



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                 CBOC Size9
                                                                                                       FY 20127            FY 20128
                                                       Albany
                                                                                    Urban                5,114              22,457             Large
                                                    (Albany, GA)
                                                     Brunswick
    7         Carl Vinson VAMC                                                      Urban                3,116              22,882           Mid-Size
                                                  (Brunswick, GA)
                                                       Macon
                                                                                    Urban                6,056              19,766             Large
                                                    (Macon, GA)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                         CBOC Reviews at Carl Vinson VAMC



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide. 10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 24 patients who received a cervical cancer screening at the Carl Vinson
VAMC’s CBOCs.

Generally the CBOCs assigned to the Carl Vinson VAMC were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or

10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.



VA OIG Office of Healthcare Inspections                                                                        4
                                                                         CBOC Reviews at Carl Vinson VAMC


near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element marked
as NC needed improvement. Details regarding the finding follow the table.

          NC                                       Areas Reviewed
                       Staff screened patients for the tetanus vaccination.
                       Staff administered the tetanus vaccine when indicated.
                       Staff screened patients for the pneumococcal vaccination.
                       Staff administered the pneumococcal vaccine when indicated.
           X           Staff properly documented vaccine administration.
                       Managers developed a prioritization plan for the potential occurrence of
                       vaccine shortages.
                                             Table 4. Vaccinations

Documentation of Vaccinations.         Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.14 We reviewed the EHRs of three patients who
received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs. We reviewed the EHRs of 28 patients who received
a pneumococcal vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to pneumococcal
vaccine administration in 27 of the EHRs.

Recommendation

1. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.




14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                5
                                                                    CBOC Reviews at Carl Vinson VAMC



                                 Onsite Reviews

                          Results and Recommendations

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                Brunswick                          Macon

     VISN                                            7                                7

     Parent Facility                         Carl Vinson VAMC                 Carl Vinson VAMC

                                                                        Licensed Clinical Social Worker
                                      Licensed Clinical Social Worker
                                                                               Nurse Practitioner
                                          Primary Care Physician
     Types of Providers                                                       Physician Assistant
                                               Psychiatrist
                                                                            Primary Care Physician
                                                Podiatrist
                                                                                 Psychologist
     Number of MH Uniques, FY
                                                    573                              897
     2012
     Number of MH Visits, FY 2012                  2,304                            5,436

     MH Services Onsite                             Yes                              Yes
                                               Dermatology
                                                Optometry
     Specialty Care Services Onsite                                                 None
                                                 Podiatry
                                                   WH
                                             Electrocardiogram
     Ancillary Services Provided
                                                Laboratory                          None
     Onsite
                                                Prosthetics
                                               Dermatology
                                                        15
                                                 MOVE                           Dermatology
     Tele-Health Services
                                              Retinal Imaging                  Retinal Imaging
                                               Wound Care
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011


VA OIG Office of Healthcare Inspections                                                                   6
                                                             CBOC Reviews at Carl Vinson VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations

16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                        7
                                                          CBOC Reviews at Carl Vinson VAMC


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                      Areas Reviewed
                    The CBOC was ADA-compliant, including: parking, ramps, door
                    widths, door hardware, restrooms, and counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
    Brunswick       There is a written, current inventory of hazardous materials
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
      Macon         IT security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
    Brunswick       The CBOC was included in facility-wide EOC activities.
     Macon
                                          Table 7. EOC



VA OIG Office of Healthcare Inspections                                                 8
                                                                      CBOC Reviews at Carl Vinson VAMC


Hazardous Materials. VA requires facilities to conduct chemical inventories twice a
year.17 The Brunswick CBOC’s chemical inventory/MSDS listing does not show
evidence of the required semi-annual review.

IT Security. VA requires that IT closets that contain equipment or information critical to
the information infrastructure be secured.18 Also, an access log must be maintained
that includes name and organization of the person visiting, signature of the visitor, form
of identification, date of access, time of entry and departure, purpose of visit, and name
and organization of person visited. We inspected the IT closet at the Macon CBOC and
found the access log to this area was not maintained. Lack of oversight for IT space
access and sharing of allocated IT space could lead to potential loss of secure
information.

EOC Rounds. EOC rounds did occur semi-annually at the Brunswick and Macon
CBOCs. However, the EOC Committee minutes document only parent facility space
toured and deficiencies identified during EOC rounds at the parent facility. The facility
did not document completion of the CBOC EOC rounds, and identified deficiencies were
not tracked by the facility EOC Committee.

Recommendations

2. We recommended that managers conduct chemical inventories and update MSDS
lists twice a year at the Brunswick CBOC.

3. We recommended that the Chief of OI&T implements required security measures at
the Macon CBOC.

4. We recommended that managers document completion of EOC rounds and identify
deficiencies in the parent facility’s EOC Committee minutes for the Brunswick and
Macon CBOCs.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.19 Table 8 shows the areas
reviewed for this topic.

         NC                                       Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
17
   VA Directive 0059, VA Chemicals Management and Pollution Prevention, 25 May 2012, Paragraph 4.d.(8).

18
   VA Handbook 6500, Information Security Program, September 18, 2007.

19
   VHA Handbook 1006.1.



VA OIG Office of Healthcare Inspections                                                                    9
                                                           CBOC Reviews at Carl Vinson VAMC


        NC                               Areas Reviewed (continued)
                     There was a local MH emergency management plan for this CBOC.
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                 10
                                                          CBOC Reviews at Carl Vinson VAMC
                                                                                Appendix A
                            VISN 7 Director Comments


                Department of
                Veterans Affairs	                            Memorandum


       Date:	          July 31, 2013

       From:	          Director, VISN 7 (10N7)

       Subject:	       CBOC Reviews at Carl Vinson VAMC

       To:	            Director, 54AT Healthcare Inspections Division (54AT)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. Attached is the Action Plan developed by the Carl Vinson VA Medical
       Center in response to the recommendations received during their recent
       OIG CBOC review.

       2. I concur with the findings and will ensure the corrective Action Plan is
       implemented.

       3. If you have any questions please contact Robin Hindsman, VISN 7
       QMO, at (678) 924-5723.




VA OIG Office of Healthcare Inspections                                                11
                                                         CBOC Reviews at Carl Vinson VAMC
                                                                               Appendix B
                   Carl Vinson VAMC Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:           July 22, 2013


       From:           Director, Carl Vinson VAMC (557/00)


       Subject:        CBOC Reviews at Carl Vinson VAMC


       To:             Director, VISN 7 (10N7)




       1. Thank you for the opportunity to review the OIG report on the CBOC
       Review of Carl Vinson VAMC. We concur with the commendations, and
       will ensure completion as described in the Action Plan.

       2. Please find attached our responses to each recommendation provided
       in the attached plan.

       3.   If you have any questions regarding the response to the
       recommendations, feel free to call me at (478) 272-1210 ext. 2401.




VA OIG Office of Healthcare Inspections                                               12
                                                          CBOC Reviews at Carl Vinson VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.

Concur

Target date for completion: August 21, 2013

Registered Nurses/Licensed Practical Nurses will continue to administer vaccinations
and document in CPRS all required information. CBOC Nurse Managers will randomly
run a computerized patient record system report to validate compliance with
documentation.

2. We recommended that managers conduct chemical inventories and update MSDS
lists twice a year at the Brunswick CBOC.

Concur

Target date for completion: July 15, 2013

CBOC Nurse Managers will ensure that a review date is added to the inventory list page
of the MSDS book and will conduct reviews and updates of the MSDS book twice a
year.

3. We recommended that the Chief of OI&T implements required security measures at
the Macon CBOC.

Concur

Target date for completion: August 1, 2013

- The Chief of OI&T will work with the Macon Nurse Manger to ensure that the IT closet
has a proper access log to determine those who have entered the IT closet.

- IT closet access log will be used in conjunction with the current video surveillance that
was in place during the time of the survey.

4. We recommended that managers document completion of EOC rounds and identify
deficiencies in the parent facility’s EOC Committee minutes for the Brunswick and
Macon CBOCs.


VA OIG Office of Healthcare Inspections                                                 13
                                                   CBOC Reviews at Carl Vinson VAMC


Concur

Target date for completion: July 23, 2013

The parent facility’s EOC Committee meets the fourth Tuesday of each month. The
CBOC Administrative Officer will collect data from each CBOC and provide monthly
reports to the EOC Committee.




VA OIG Office of Healthcare Inspections                                         14
                                                           CBOC Reviews at Carl Vinson VAMC
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Project Leader
Contributors            Tishanna McCutchen, ARNP, MSN, Team Leader
                        Charles H. Cook, MHA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  15
                                                       CBOC Reviews at Carl Vinson VAMC
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 7 (10N7)
Director, Carl Vinson VAMC (557/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: John Barrow, Sanford D. Bishop, Jr., Jack Kingston,
 Austin Scott


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              16
